                The Risk of Inaccurate Computer Changes
                 Can Be Reduced in Future Tests of the
                        Earned Income Tax Credit

                                     April 2004

                       Reference Number: 2004-40-089




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                        April 13, 2004


       MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


       FROM:                          Gordon C. Milbourn III
                                      Acting Deputy Inspector General for Audit

       SUBJECT:                       Final Audit Report - The Risk of Inaccurate Computer Changes
                                      Can Be Reduced in Future Tests of the Earned Income Tax
                                      Credit (Audit # 200340050)


       This report presents the results of our review of computer system updates necessary for
       the 2004 Earned Income Tax Credit (EITC) Proof of Concept Test. The overall
       objective of this review was to determine if the Internal Revenue Service (IRS) had
       timely and accurately updated all computer systems as necessary.
       The EITC, enacted in 1975,1 helps lift millions of families above the poverty line each
       year. While the EITC has provided significant benefits to taxpayers, it has also resulted
       in significant loss of revenue to the Federal Government due to fraud and abuse. An
       IRS compliance study of Tax Year 1999 returns estimated between $8.5 and
       $9.9 billion (27 to 32 percent) of the $31 billion in EITC claimed should not have been
       paid.2
       In February 2002, the Department of the Treasury and the IRS announced that a Task
       Force would examine the administration and complexity of the EITC. The IRS used the
       Task Force recommendations to develop a future vision for administering the EITC.
       The first step the IRS is taking to implement this future vision is to test some of the
       vision’s basic concepts, referred to as the EITC Proof of Concept Test (the Test). The
       EITC Office in the IRS Wage and Investment Division has been tasked with running the
       Test and overseeing the EITC Program and future vision.
       Our audit focused on the controls the EITC Office used to provide assurance that all
       computer system changes necessary to run the Test had been identified and timely and


       1
           Tax Reduction Act of 1975, Pub. L. No. 94-12, 89 Stat. 30 (1975).
       2
           IRS report, Compliance Estimates for Earned Income Tax Credit on 1999 Returns, dated February 28, 2002.
                                             2

accurately implemented. Because of IRS delays in finalizing many of the needed
computer system changes, we were unable to determine if all systems needing
modification were properly identified, nor could we assess the accuracy of the system
changes. In addition, the IRS had not completed all of the processes we had planned to
test during our audit.
The EITC Office, working with the Modernization and Information Technology Services
(MITS) function, had to revise a number of computer systems and programs to
implement the Test. Identifying all computer systems affected by the Test and ensuring
they were properly updated was a tremendous undertaking. Although many of the
changes were made late in the year, EITC Office management informed us that all
necessary changes to computer systems and programs were made and implemented.
We were able to verify that the changes necessary to implement the Verification of
Income portion of the Test were correctly initiated and properly tested.
However, we were unable to verify that all necessary changes were made related to the
Certification and Filing Status portions of the Test. Because so many changes were
made to the Test late in the year, the EITC Office did not always follow existing
computer change procedures and controls. In addition, there was insufficient
documentation to validate that the necessary programming changes were made or that
those changes met Test requirements and worked as intended. For example, the
system documentation we did locate for the Certification portion of the Test did not
mention the special program codes the IRS planned to use to select two sub-samples.
We also were unable to find documentation that the programming changes had been
made to allow the full refunds for 5,000 taxpayers in the Filing Status portion of the Test.
Without this documentation, the EITC Office cannot be sure all needed changes were
identified and programmed properly.
The EITC Office advised us that, based upon the results of the Test and stakeholder
input, it would likely continue to test its EITC vision in upcoming years. Although the
current Test is already underway, the EITC Office can take steps to improve its
assurance that computer programming changes made for future tests of the EITC are
accurate, meet test requirements, and work as intended. Stronger controls will reduce
the risk to future IRS efforts to test plans for the EITC Program.
To improve assurance that needed computer system changes for future tests of the
EITC vision are properly identified and accurately implemented, we recommended the
Director, EITC, work within the established guidelines for requesting changes to IRS
computer systems. For situations in which time considerations preclude the use of the
formal process, the Director should work with the MITS function to establish a process
to document and maintain the communication of requested business requirements and
agreements to make changes. The Director should also work with the MITS function to
establish guidelines or milestones identifying when final system change requests will be
received and programming completed for future tests of the IRS’ EITC vision.
Management’s Response: IRS management agreed with our recommendations and
has already initiated corrective actions. Specifically, (1) a Request for Information
Services (RIS) will be submitted for all computer changes in the future and modified for
                                          3

any subsequent requirements changes, (2) the EITC Program and the MITS function
have developed procedures to use when the formal RIS process is not feasible, and
(3) placeholder RISs have already been submitted for 2004 and meetings held to
discuss the detailed requirements. Management’s complete response to the draft report
is included as Appendix IX.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
                    The Risk of Inaccurate Computer Changes Can Be Reduced
                         in Future Tests of the Earned Income Tax Credit




                                                  Table of Contents


Background ............................................................................................... Page 1
Programming for the Income Portion of the Test
Has Been Completed ................................................................................ Page 4
Controls Can Be Improved to Ensure Requested Changes Agree
With What Is Programmed ........................................................................ Page 5
         Recommendations 1 and 2: .......................................................... Page 11

Controls Can Be Enhanced to Ensure Computer System Changes
Are Properly Tested................................................................................... Page 11
         Recommendation 3: ...................................................................... Page 14

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 15
Appendix II – Major Contributors to This Report........................................ Page 17
Appendix III – Report Distribution List ....................................................... Page 18
Appendix IV – Earned Income Tax Credit Rules for Tax Year 2003.......... Page 19
Appendix V – Internal Revenue Service Computer Systems Affected
by the Earned Income Tax Credit Proof of Concept Test .......................... Page 20
Appendix VI – Treasury Inspector General for Tax Administration
and General Accounting Office Reviews of the
Earned Income Tax Credit Proof of Concept Test ..................................... Page 22
Appendix VII – The Internal Revenue Service’s Request for
Information Services Process .................................................................... Page 23
Appendix VIII – Inconsistencies Between Requested Programming
Changes and Available System Documentation........................................ Page 24
Appendix IX – Management’s Response to the Draft Report .................... Page 27
             The Risk of Inaccurate Computer Changes Can Be Reduced
                  in Future Tests of the Earned Income Tax Credit

                              The Earned Income Tax Credit (EITC) is a refundable credit
Background
                              available to taxpayers that file returns with certain earned
                              income. Enacted by the Congress in 1975,1 the EITC helps
                              lift millions of families above the poverty line each year.
                              For Tax Year (TY) 2003, the maximum credit a taxpayer
                              can receive will be $4,204. The requirements taxpayers
                              must satisfy to qualify for the EITC are explained in
                              Appendix IV.
                              While the EITC has provided significant benefits to
                              taxpayers, it has also resulted in a significant loss of revenue
                              for the Federal Government due to fraud and abuse. An
                              Internal Revenue Service (IRS) compliance study of
                              TY 1999 returns estimated between $8.5 and $9.9 billion
                              (27 to 32 percent) of the $31 billion in EITC claimed should
                              not have been paid.2
                              On February 28, 2002, the Department of the Treasury and
                              the IRS announced that a Task Force would examine the
                              administration and complexity of the EITC. The Treasury
                              Assistant Secretary for Tax Policy and the IRS
                              Commissioner headed the Task Force. The Task Force used
                              the TY 1999 compliance study as the basis for its
                              recommendations. The IRS used these recommendations to
                              develop a future vision for administering the EITC. This
                              vision is outlined in the IRS’ EITC Concept of Operations.
                              The first step the IRS is taking to implement its future
                              vision for the EITC Program is to test some of the basic
                              concepts outlined in the Concept of Operations, referred to
                              as a Proof of Concept Test (the Test). The Test is intended
                              to provide the IRS with information necessary to determine
                              if the basic concepts are feasible for improving EITC
                              compliance without harming participation in the Program.
                              This information, along with input from numerous
                              stakeholders, will be evaluated before the IRS determines
                              how to proceed with the implementation of its future vision
                              for the credit. The EITC Office in the IRS Wage and
                              Investment (W&I) Division has been tasked with running



                              1
                               Tax Reduction Act of 1975, Pub. L. No. 94-12, 89 Stat. 30 (1975).
                              2
                               IRS report, Compliance Estimates for Earned Income Tax Credit on
                              1999 Returns, dated February 28, 2002.
                                                                                           Page 1
The Risk of Inaccurate Computer Changes Can Be Reduced
     in Future Tests of the Earned Income Tax Credit

                 the Test and overseeing the EITC Program and future
                 vision.
                 The IRS will test three approaches to improving EITC
                 compliance as part of the Test.
                 •   Certification of Qualifying Child Residency
                     Requirements (Certification) – The IRS will ask
                     25,000 EITC claimants to verify, when they file their
                     TY 2003 returns, that the qualifying child claimed for
                     EITC purposes resided with them in the United States
                     for more than one-half of the year, as required by law.
                 •   Verification of Filing Status (Filing Status) – The IRS
                     will review the TY 2003 returns for 41,000 EITC
                     claimants filing as “Head of Household” or “Single.”
                     These taxpayers will be asked to validate that they have
                     chosen the correct filing status, which could affect their
                     eligibility for the credit.
                 •   Verification of Income (Income) – The IRS will review
                     the TY 2002 returns for 300,000 taxpayers that claimed
                     the EITC but failed in the past to report all their income.
                     These taxpayers may not be eligible for the EITC
                     because their income, when corrected, is too high to
                     qualify for the credit.
                 The Test will be conducted primarily during the 2004 Filing
                 Season3 and will affect only a limited number of the
                 approximately 21 million taxpayers that claimed the EITC
                 in TY 2002.
                 To implement the Test, a number of IRS computer systems
                 had to be revised, including those that affect processing of
                 individual income tax returns, examination of returns, and
                 recording of return information. The EITC Office has
                 worked with the IRS Modernization and Information
                 Technology Services (MITS) function to make the changes
                 to the computer systems and programs. A listing of the IRS
                 computer systems affected and a definition of each can be
                 found in Appendix V. The EITC Office originally began
                 submitting its requests to change the necessary computer
                 systems in February 2003. However, the EITC Office made

                 3
                   The period from January through mid-April when most individual
                 income tax returns are filed.
                                                                              Page 2
The Risk of Inaccurate Computer Changes Can Be Reduced
     in Future Tests of the Earned Income Tax Credit

                 a number of changes to the Test after the requests were
                 submitted.
                 The IRS asked interested parties for comments about its
                 plans for the Certification portion of the Test in June 2003.
                 In August, the IRS significantly revised its plans for
                 certifying the qualifying child residency and relationship
                 requirements as a result of the feedback it received. This
                 was the beginning of a series of changes, some driven by
                 sources outside the IRS, that affected the scope of the Test.
                 The EITC Office continued to modify its requirements for
                 the Test into November 2003.
                 Two basic types of computer changes were necessary to
                 implement the Test—changes to enable the IRS to
                 communicate properly with taxpayers in the Test and
                 changes to ensure tax returns filed by taxpayers in the Test
                 were properly identified and processed using Test criteria.
                 Both types of changes are critical to the accuracy and
                 reliability of the Test results.
                 Our audit focused on the controls the EITC Office used to
                 provide assurance that all computer system changes
                 necessary to run the Test had been identified and timely and
                 accurately implemented. IRS delays in finalizing many of
                 the needed computer system changes prevented us from
                 evaluating whether all systems needing modification were
                 properly identified and from assessing the accuracy of these
                 system changes. In addition, not all of the EITC Office
                 processes we had planned to test had been completed at the
                 time we conducted our audit.
                 This audit was performed between August and
                 December 2003. Testing was conducted in the W&I
                 Division Headquarters Office in Atlanta, Georgia; the W&I
                 Division Campus4 in Kansas City, Missouri; and the MITS
                 function in Lanham, Maryland. This audit was conducted in
                 accordance with Government Auditing Standards. It is the
                 second in a series of audits we are conducting on the Test.
                 Information from our previous audit report, along with the


                 4
                  The data processing arm of the IRS. The campuses process paper and
                 electronic submissions, correct errors, and forward data to the
                 computing centers for analysis and posting to taxpayer accounts.
                                                                             Page 3
                 The Risk of Inaccurate Computer Changes Can Be Reduced
                      in Future Tests of the Earned Income Tax Credit

                                  results of a review of the Test by the General Accounting
                                  Office, can be found in Appendix VI.
                                  Detailed information on our audit objective, scope, and
                                  methodology is presented in Appendix I. Major
                                  contributors to the report are listed in Appendix II.
                                  Identifying all computer systems affected by the Test and
Programming for the Income
                                  ensuring they were properly updated was a tremendous
Portion of the Test Has Been
                                  undertaking for the EITC Office. Although many of the
Completed
                                  changes were made late in the year, EITC Office
                                  management informed us that all necessary changes to
                                  computer systems and programs were made and
                                  implemented. We were able to verify that the changes
                                  necessary to implement the Income portion of the Test were
                                  correctly initiated and properly tested.
                                  The IRS system used to identify issues of income
                                  misreporting is called the Automated Underreporter (AUR)
                                  Program. The EITC Office identified and implemented
                                  changes to the AUR Program necessary to allow the IRS to
                                  verify that the income and EITC claimed are accurate for
                                  300,000 taxpayers selected for the Income portion of the
                                  Test. These taxpayers claimed the EITC on their 2002 tax
                                  returns, and a significant number of them have a history of
                                  underreporting their income to the IRS.
                                  We determined that necessary computer system changes
                                  were properly implemented for the Income portion of the
                                  Test. However, we were unable to verify that all necessary
                                  changes were made for the Certification and Filing Status
                                  portions of the Test. Additionally, if the pattern of
                                  requesting computer changes late in the year continues, it
                                  will create a significant hardship on the MITS function to
                                  complete the necessary programming changes and
                                  adequately test those changes before any future tests of the
                                  EITC are implemented.
                                  The EITC Office advised us that, based upon the results of
                                  the Test and stakeholder input, it would likely continue to
                                  test its EITC vision in upcoming years. However, the EITC
                                  Office does not plan to finalize the results of the Test until
                                  mid-Summer 2004. This will create a significant hardship
                                  on the MITS function to complete the necessary
                                  programming changes and adequately test those changes

                                                                                         Page 4
                The Risk of Inaccurate Computer Changes Can Be Reduced
                     in Future Tests of the Earned Income Tax Credit

                                 before any future tests of the EITC are implemented.
                                 Strengthening the controls used to manage requested
                                 computer changes can reduce the risk to future efforts to test
                                 plans for the EITC Program.
                                 The EITC Office used a combination of processes to
Controls Can Be Improved to
                                 manage the implementation of the computer system changes
Ensure Requested Changes Agree
                                 necessary for the Test and was able to adequately manage
With What Is Programmed
                                 some of these changes. However, existing controls were not
                                 sufficient to ensure all needed changes were effectively
                                 implemented. As a result, the EITC Office cannot be sure
                                 all required computer changes were properly identified and
                                 programmed.
                                 The processes the EITC Office used to oversee the
                                 implementation of the Test continued to evolve as the IRS
                                 approached the beginning of the 2004 Filing Season. The
                                 EITC Office initially used the IRS’ formal process, known
                                 as the Request for Information Services (RIS) process, for
                                 requesting changes to computer systems. A brief
                                 description of the RIS process can be found in
                                 Appendix VII.
                                 According to the IRS Internal Revenue Manual, if the
                                 original request is modified, the function modifying the
                                 request should submit either a new request or an amendment
                                 to the original request. For the Test, the EITC Office
                                 submitted four requests for changes to IRS computer
                                 systems in 2003, three in February and one in September.
                                 However, the EITC Office continued to modify the
                                 requested changes as late as November 2003. Even though
                                 these modifications were substantial, the EITC Office did
                                 not, except in two instances, submit amended or new
                                 requests to the MITS function.
                                 When we discussed the limited use of the RIS process with
                                 EITC Office management, they agreed the process for filing
                                 amended requests was not being followed for the Test. The
                                 EITC Office pointed out that the number of changes and the
                                 limited time periods available to implement those changes
                                 made following this process unfeasible. The EITC Office
                                 advised us that, rather than using amended or new requests
                                 when changes to the Test were made, it communicated the
                                 requested changes to the MITS function through other
                                 means, primarily electronic mail and meetings.
                                                                                        Page 5
The Risk of Inaccurate Computer Changes Can Be Reduced
     in Future Tests of the Earned Income Tax Credit

                 We agree that following the formal process to submit
                 amended requests each time a change to the Test was made
                 would have been very difficult. However, not following the
                 process increased the risk that important computer system
                 changes would not be accurately and timely implemented.
                 In fact, we found it difficult to obtain records of various
                 meetings to verify whether the changes programmed into
                 the systems agreed with those requested.
                 The EITC Office developed additional controls to monitor
                 and oversee the Test throughout its preparations for
                 implementation. These controls included a Proof of
                 Concept Workplan, a Proof of Concept Development and
                 Deployment Checklist, and risk management worksheets.
                 The EITC Office also maintained documentation that
                 contained the specific requested system changes for both the
                 Certification and Filing Status portions of the Test. While
                 these controls were not developed to specifically track the
                 implementation of individual system changes, they did
                 reduce some of the risk of inaccurate and untimely changes.
                 The key control the EITC Office is using to manage the Test
                 is the Proof of Concept Workplan. This Workplan provides
                 a listing and brief description of each of almost 400 tasks
                 that have to be completed for the Test, including many that
                 do not involve computer system changes. Although the
                 Workplan was not designed to specifically track each
                 requested computer change, the EITC Office could have
                 used it more effectively to identify potential problems with
                 the implementation of those changes. Below are examples
                 we identified in the Workplan.
                 •   The Filing Status portion of the Test was revised to
                     include two different samples of taxpayers, with
                     different criteria for each sample. For one sample, the
                     IRS will evaluate the TY 2003 EITC claims before they
                     are paid. Claims for the other sample will be evaluated
                     after the claims are paid. The Workplan lists the
                     original request for computer changes and a general
                     description of the tasks necessary to complete the
                     request. However, the Workplan does not provide the




                                                                      Page 6
The Risk of Inaccurate Computer Changes Can Be Reduced
     in Future Tests of the Earned Income Tax Credit

                     specific business requirements5 for the two separate
                     samples. The EITC Office provided us with a separate
                     document that detailed the business requirements for the
                     Filing Status portion of the Test, but the document
                     discussed only one of the samples.
                 •   The Test required important changes to the IRS Report
                     Generation Software (RGS) System. The Workplan
                     listed a computer system change request for these
                     changes even though this particular request was
                     withdrawn from the MITS function. Although the
                     request had been withdrawn, necessary computer
                     changes were still being made to the RGS System. We
                     advised the EITC Office of this discrepancy, and it
                     immediately took steps to create a new computer system
                     change request to document the changes to the RGS
                     System.
                 The EITC Office has worked to revise the Workplan since
                 September 2003 to make it more effective. This includes
                 updating the Workplan every 2 weeks and highlighting tasks
                 that have not been completed or are at risk of not being
                 completed by the target due date. The EITC Office also
                 instituted a change management process to control updates
                 to the Workplan.
                 In addition to the Workplan, the W&I Division Business
                 Systems Planning Office developed a Proof of Concept
                 Development and Deployment Checklist to identify
                 minimum areas of consideration that need to be met for the
                 Test. In October 2003, the MITS function developed risk
                 management worksheets to identify certain issues related to
                 the requested computer system changes that were at risk of
                 not being completed in time for implementation of the Test.
                 As with the Workplan, the Checklist and risk management
                 worksheets are important and beneficial controls, but neither
                 ensured all of the computer system changes were accurately
                 and timely implemented.
                 The EITC Office also worked with the MITS function to
                 prepare and update “Batch Requirements” documents for

                 5
                  Business requirements refer to the essential functional and operational
                 capabilities that should be provided by the proposed new computer
                 systems and business processes.
                                                                                  Page 7
The Risk of Inaccurate Computer Changes Can Be Reduced
     in Future Tests of the Earned Income Tax Credit

                 the changes to the RGS System necessary for the
                 Certification and Filing Status portions of the Test. These
                 documents were used to provide specific criteria for these
                 two portions of the Test, including the types of letters or
                 notices taxpayers would receive and when. Corresponding
                 changes to the RGS System were made and documented
                 based upon these “Batch Requirements.” While this control
                 reduced the risk of error for this particular computer system,
                 similar steps were not taken for changes to other IRS
                 computer systems affected by the Test.
                 In addition to the above controls used to monitor the
                 requests for needed computer changes, the IRS has
                 processes in place to ensure the requested changes are
                 programmed into the systems correctly before they are
                 implemented. The EITC Office can also improve upon
                 these processes to ensure IRS computer systems accurately
                 reflect the business requirements communicated to the
                 MITS function.
                 The IRS maintains documentation on each of its computer
                 systems that describes in detail what happens to tax returns
                 as they pass through the system. We compared the
                 documentation for the computer systems affected by the
                 Test to the business requirements requested by the EITC
                 Office. Our comparison identified some potentially
                 significant inconsistencies.
                 Below is a brief overview of the inconsistencies we
                 identified. A more detailed discussion of these issues can be
                 found in Appendix VIII. While these inconsistencies may
                 indicate potential problems with the computer programming
                 necessary for the Test, we could not validate that any
                 problems actually exist.
                 •   The EITC Office revised the Certification portion of the
                     Test to include 2 subsamples within its original sample
                     of 25,000 taxpayers. The EITC Office planned to create
                     a special code for each of these groups of taxpayers
                     identifying which program the returns would be worked
                     under. However, our review of documentation for the
                     computer program affected by this portion of the Test
                     showed no reference to these special codes.


                                                                        Page 8
The Risk of Inaccurate Computer Changes Can Be Reduced
     in Future Tests of the Earned Income Tax Credit

                 •   Beginning with the 2004 Filing Season, the IRS will
                     allow the non-EITC portion of the refund to be sent to
                     taxpayers whose returns are stopped during processing
                     pending verification of their EITC claims. The
                     remainder of the refunds will be held until the EITC
                     claims can be verified. This change affects all taxpayers
                     whose EITC claims are being verified. It also creates a
                     potential problem for the Filing Status portion of the
                     Test. The EITC Office intends for a sample of
                     5,000 taxpayers in the Filing Status portion of the Test
                     to receive their full refunds rather than having the EITC
                     portions held prior to verification of their filing status.
                     We were unable to find documentation that ensures
                     programming changes had been made to allow the
                     issuance of full refunds for the 5,000 taxpayers.
                     The EITC Office advised us all programming changes
                     needed to allow the issuance of refunds for the sample
                     of 5,000 taxpayers have been made. However, it was
                     unable to provide us with updated documentation to
                     support this.
                 •   The IRS offers taxpayers two ways to check on the
                     status of their refunds—the “Where’s My Refund?” link
                     on the IRS Internet web site and the toll-free telephone
                     refund inquiry line. However, the response provided to
                     EITC claimants whose refunds have been partially
                     frozen pending verification of their EITC claims may be
                     confusing.
                     We advised the EITC Office of this issue on
                     November 14, 2003. While it agreed improvements
                     could be made to the IRS Internet web site and toll-free
                     telephone refund inquiry line, changes could not be
                     implemented for the 2004 Filing Season but would be
                     considered in the future. The EITC Office also
                     indicated correspondence sent to taxpayers receiving
                     partial refunds would help reduce the confusion these
                     taxpayers experience since the correspondence explains
                     why part of each refund is being held.
                 •   Taxpayers and tax preparers that electronically file
                     TY 2003 returns claiming the EITC will receive an
                     electronic notification from the IRS if the taxpayer is
                     selected to be part of the Certification portion of the
                                                                         Page 9
The Risk of Inaccurate Computer Changes Can Be Reduced
     in Future Tests of the Earned Income Tax Credit

                    Test. The notification alerts the taxpayer and/or tax
                    preparer that the EITC portion of the taxpayer’s refund
                    will be frozen until the IRS verifies that the taxpayer
                    meets the EITC qualifying child residency requirements.
                    The notification also states where to send the additional
                    required documentation.
                    We advised the EITC Office on November 20, 2003, of
                    a concern about the criteria used to generate this
                    notification. The EITC Office had planned to send the
                    notification to these taxpayers regardless of whether
                    they had claimed a qualifying child for the EITC on
                    their TY 2003 returns. However, per the criteria set for
                    the Test, if the taxpayer does not claim a qualifying
                    child, the refund will not be delayed and no additional
                    documentation is necessary. After receiving this
                    information from us, the EITC Office revised the criteria
                    for sending the notification so only those taxpayers in
                    the Test that claim the EITC with qualifying children
                    will receive it.
                 Inconsistencies between requested business requirements
                 and system documentation indicate potential inaccuracies in
                 the related computer systems. If these inaccuracies exist,
                 the reliability of the information obtained from the Test
                 could be at risk.
                 The EITC Office advised us the changes necessary to
                 implement the Test were primarily communicated to the
                 MITS function through meetings and electronic mail.
                 However, the MITS function is not required to keep a
                 central control file or project folder documenting the
                 requested changes discussed in these meetings and
                 electronic mail. Not having documentation in a central
                 project folder makes it difficult to ensure all of the changes
                 actually made to the computer systems agree with the final
                 changes requested by the EITC Office.
                 As mentioned earlier, the IRS plans to conduct additional
                 tests of its future vision to improve compliance with the
                 EITC Program. Although the current Test is already
                 underway, the EITC Office can take steps to improve its
                 assurance that computer programming changes for future
                 tests of the EITC are accurate, meet test requirements, and
                 work as intended.
                                                                        Page 10
                The Risk of Inaccurate Computer Changes Can Be Reduced
                     in Future Tests of the Earned Income Tax Credit

                                 Recommendations

                                 To improve the EITC Office’s assurance that needed
                                 computer changes are properly identified and implemented
                                 in future tests of its concepts for administering the EITC, the
                                 Director, EITC, should:
                                 1. Work within the established guidelines to the extent
                                    possible when requesting necessary computer program
                                    changes related to the future vision of the EITC
                                    Program. While it may not be feasible to follow the full
                                    process for all changes, following as much of the
                                    process as possible will increase the assurance that
                                    requested computer system changes are programmed
                                    and implemented as intended.
                                 Management’s Response: The EITC Program has already
                                 adopted procedures to adhere to the RIS process whenever
                                 possible. In the future, a RIS will be submitted for all
                                 computer changes and modified for any subsequent changes
                                 to requirements.
                                 For those instances in which using the formal request for
                                 computer change process is not feasible, the Director, EITC,
                                 should:
                                 2. Work with the MITS function to establish a process to
                                    document the communication of requested business
                                    requirements. The documentation should include a
                                    record of discussions and electronic mail in which
                                    system changes are informally discussed and agreed
                                    upon.
                                 Management’s Response: The EITC Program, in
                                 coordination with the MITS function, has developed
                                 procedures to use when the formal RIS process is not
                                 feasible. Specifically, the MITS function will document
                                 changes based on discussions and electronic mail.
                                 A critical part of the controls to ensure IRS computer
Controls Can Be Enhanced to
                                 systems and programs are accurate is the formal
Ensure Computer System
                                 independent testing process known as the System
Changes Are Properly Tested
                                 Acceptability Test (SAT). In the SAT process, independent
                                 testing is performed to verify computer software
                                 requirements using all available system documentation.
                                 This process also ensures various systems interact with each
                                                                                       Page 11
The Risk of Inaccurate Computer Changes Can Be Reduced
     in Future Tests of the Earned Income Tax Credit

                 other properly. An important part of the process is the
                 receipt of the request for system changes. The developer of
                 the computer program must make a formal request for the
                 SAT before testing can occur.
                 A number of important changes to the Test were made in
                 August 2003. Still, some of those changes were not
                 finalized until as late as November 2003. The lateness of
                 finalizing these changes made it very difficult for the MITS
                 function to complete the independent SAT process for a
                 number of the changes.
                 The SAT process was or will be performed on computer
                 system changes involving taxpayer notices that are part of
                 the Certification portion of the Test. The independent
                 testing process is also scheduled for the changes to allow
                 partial refunds to taxpayers selected for examination of their
                 EITC claims.
                 However, one critical computer change necessary for the
                 success of the Test appears not to have gone through the
                 independent testing process. The MITS function completed
                 computer system changes to modify the process used to
                 select EITC taxpayers for examination as part of the Test.
                 Documentation provided by the MITS function did not
                 show this modified selection process had been or would be
                 independently tested. We discussed this issue with the
                 EITC Office on December 12, 2003.
                 We were advised that independent testing was performed to
                 ensure the examination selection process works properly
                 when taxpayers participating in the Test file their TY 2003
                 returns. Although the EITC Office advised us this testing
                 was done, it could not provide documentation to verify the
                 testing had been either scheduled or completed.
                 Not independently testing this important process increases
                 the potential that taxpayers will not be accurately identified
                 for special treatment as part of the Test. If taxpayers
                 selected for the Test are not properly identified, the success
                 of the Test is at risk.
                 The EITC Office advised us the computer programmers
                 tested a number of the requested changes prior to their
                 implementation. We agree this level of testing provides
                 some assurance that the changes were programmed
                                                                        Page 12
The Risk of Inaccurate Computer Changes Can Be Reduced
     in Future Tests of the Earned Income Tax Credit

                 properly. However, this type of testing does not provide an
                 independent assessment of the accuracy of the system. The
                 SAT process relies on the request for computer changes and
                 available system documentation to ensure the computer
                 system is operating the way the documentation says it
                 should. The SAT process provides an independent
                 assessment of the validity of the computer systems being
                 tested. Based upon the inconsistencies we found between
                 the system documentation and the requested system
                 changes, we believe it is imperative this independent testing
                 be completed.
                 Another critical IRS testing process involves determining
                 whether different IRS computer systems still interact
                 properly to achieve the desired results after changes have
                 been made to those systems. The IRS refers to this test as
                 the Final Integration Test (FIT). The primary FIT is
                 performed annually. While the final test phase of the FIT is
                 performed in December, test preparation begins early in the
                 calendar year. The main purpose of the FIT is to validate
                 that certain IRS computer systems inter-operate correctly to
                 ensure that any problems are discovered and corrected prior
                 to the start of the filing season and that tax processing is
                 accurate. Because a number of the changes for the Test
                 were made late in 2003, these changes were not part of the
                 2003 FIT.
                 Without an integration test for the Test, the risk of error
                 during the Test’s implementation is increased. The MITS
                 function also identified that not having a beginning-to-end
                 test was one of the risks associated with the Test. This issue
                 was discussed with the EITC Office on December 12, 2003.
                 The EITC Office indicated it was aware of the risk and
                 plans to closely monitor the implementation of the Test to
                 quickly identify and address any issues that may develop.
                 While monitoring may identify problems, the process will
                 likely be too slow to timely identify and correct any
                 problems the EITC Office identifies before taxpayers or the
                 validity of the Test are adversely affected.
                 The EITC Office plans to finalize the results of its Test in
                 mid-Summer 2004. As a result, any requirements for
                 system changes for additional tests planned for the
                 2005 Filing Season probably will not be finalized until late

                                                                       Page 13
The Risk of Inaccurate Computer Changes Can Be Reduced
     in Future Tests of the Earned Income Tax Credit

                 in 2004. This will again jeopardize the EITC Office’s
                 ability to adequately test the changes before these future
                 tests are implemented.

                 Recommendation

                 To increase assurance that computer systems affected by
                 future tests of the IRS’ vision for the EITC are operating as
                 intended, the Director, EITC, should:
                 3. Meet with the MITS function as early as possible in
                    Calendar Year 2004 to establish guidelines or
                    milestones identifying when final system change
                    requests will be received and programming completed
                    for future anticipated EITC tests. This agreement should
                    provide increased assurance that, if these milestones are
                    met, there will be sufficient time for proper testing of
                    system changes prior to implementation.
                 Management’s Response: The EITC Program has already
                 submitted its placeholder RISs for 2004 and met with
                 representatives from the MITS function and the business
                 owners to discuss detailed requirements.




                                                                       Page 14
                   The Risk of Inaccurate Computer Changes Can Be Reduced
                        in Future Tests of the Earned Income Tax Credit

                                                                                                   Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine if the Internal Revenue Service (IRS) had
timely and accurately updated all computer systems necessary for the 2004 Earned Income Tax
Credit (EITC) Proof of Concept Test (the Test). However, IRS delays in finalizing many of the
needed computer system changes for the Test prevented us from evaluating whether all systems
needing modification were properly identified and from assessing the accuracy of these system
changes. In addition, not all of the EITC Office processes we had planned to test had been
completed at the time we conducted our audit. As a result, our audit focused on the controls the
EITC Office used to provide assurance that all necessary system changes had been identified and
timely and accurately implemented. To complete our objective, we:
I.      Reviewed the Proof of Concept Workplan to identify changes that will require
        corresponding changes to IRS computer systems. We also interviewed IRS personnel in
        the Wage and Investment (W&I) Division Headquarters Office in Atlanta, Georgia; the
        W&I Division Campus1 in Kansas City, Missouri; and the Modernization and
        Information Technology Services (MITS) function in Lanham, Maryland. We obtained
        additional documentation that defines specific criteria for the three approaches the IRS
        will be testing:
        •    Certification of Qualifying Child Residency Requirements.
        •    Verification of Filing Status.
        •    Verification of Income.
II.     Determined if the computer system requests necessary to implement the Test were
        initiated and if the IRS has an effective process to ensure timely implementation. We
        accessed the IRS’ Request for Information Services (RIS) Tracking and Reporting
        System to obtain and review all pertinent requests. We also contacted the initiator and
        the IRS function responsible for controlling the progress of each request to determine:
        A. The status and process used to control the progress of each request.
        B. Whether any request will not be timely implemented and, if so, the potential impact
           on other related requests.
III.    Evaluated whether computer system requests accurately identified and clearly explained
        what changes needed to be made to the IRS computer systems.



1
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the computing centers for analysis and posting to taxpayer accounts.
                                                                                                         Page 15
               The Risk of Inaccurate Computer Changes Can Be Reduced
                    in Future Tests of the Earned Income Tax Credit

      A. Reviewed the formal RIS documents to identify what IRS computer systems needed
         to be changed and to determine whether the requests were specific and clear as to the
         system changes needed.
      B. Compared the requests to the system changes documentation to identify any
         discrepancies.
      C. Discussed with the EITC Office the process used to ensure all IRS computer systems
         affected by the Test were correctly identified and the requests were completed for
         those changes.
      D. Discussed any questions or concerns the MITS function may have had with the
         requests prior to their implementation.
IV.   Determined if IRS computer systems that could be affected by the Test were not
      identified for necessary changes by the computer system requests.
      A. Accessed and researched the IRS’ RIS Tracking and Reporting System to identify any
         potential impacts to IRS modernization.
      B. Advised the IRS of potential issues with certain computer systems.




                                                                                       Page 16
               The Risk of Inaccurate Computer Changes Can Be Reduced
                    in Future Tests of the Earned Income Tax Credit

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Director
Deann L. Baiza, Audit Manager
John L. Hawkins, Senior Auditor
Areta G. Heard, Senior Auditor
Glory Jampetero, Auditor




                                                                                         Page 17
              The Risk of Inaccurate Computer Changes Can Be Reduced
                   in Future Tests of the Earned Income Tax Credit

                                                                        Appendix III


                              Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Chief Information Officer OS:CIO
Chief, Information Technology Services OS:CIO:I
Director, Earned Income Tax Credit SE:W:EITC
Director, Strategy and Finance SE:W:S
Earned Income Tax Credit Program Manager SE:W:EITC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
        GAO/TIGTA Liaison, Wage and Investment Division SE:W:S:PA
        TIGTA Liaison, Information Technology Services OS:CIO:R:PM:PO




                                                                             Page 18
                   The Risk of Inaccurate Computer Changes Can Be Reduced
                        in Future Tests of the Earned Income Tax Credit

                                                                                                  Appendix IV


                      Earned Income Tax Credit Rules for Tax Year 2003

Below is a general description of the qualifications taxpayers must meet to be eligible for the
Earned Income Tax Credit (EITC). A detailed description of these rules can be found in the
Internal Revenue Service publication Earned Income Credit (EIC) (Publication 596).
Everyone must meet all of the following rules:
    •   You must have a valid Social Security Number.
    •   Your filing status cannot be “Married filing separately.”
    •   You must be a United States citizen or resident alien all year.
    •   You cannot file Foreign Earned Income (Form 2555) or Foreign Earned Income
        Exclusion (Form 2555-EZ).
    •   Your investment income must be $2,600 or less.
    •   You must have earned income.
Rules to meet if you have a qualifying child (must meet all):
    •   Your child must meet the relationship, age, and residency tests.
    •   Your qualifying child cannot be used by more than one person to claim the EITC.
    •   You cannot be a qualifying child of another person.
Rules to meet if you do not have a qualifying child (must meet all):
    •   You must be at least age 25 but under age 65.
    •   You cannot be the dependent of another person.
    •   You cannot be a qualifying child of another person.
    •   You must have lived in the United States more than one-half of the year.
Figuring and claiming the EITC (must meet both rules):
    •   Your adjusted gross income (AGI)1 must be less than:
        o $33,692 ($34,692 for married filing jointly) if you have more than 1 qualifying child.
        o $29,666 ($30,666 for married filing jointly) if you have 1 qualifying child.
        o $11,230 ($12,230 for married filing jointly) if you do not have a qualifying child.
    •   Your earned income must be less than:
        o $33,692 ($34,692 for married filing jointly) if you have more than 1 qualifying child.
        o $29,666 ($30,666 for married filing jointly) if you have 1 qualifying child.
        o $11,230 ($12,230 for married filing jointly) if you do not have a qualifying child.



1
 AGI is a taxpayer’s gross income for the year adjusted for certain exclusions from income provided for in the
Internal Revenue Code.
                                                                                                           Page 19
                   The Risk of Inaccurate Computer Changes Can Be Reduced
                        in Future Tests of the Earned Income Tax Credit

                                                                                                  Appendix V


                   Internal Revenue Service Computer Systems Affected
                  by the Earned Income Tax Credit Proof of Concept Test

Individual Master File
The Individual Master File (IMF) is a collection of all individual taxpayer data from magnetic
tape records, tax returns, and related documents filed throughout the nation. It is the official
control record for a taxpayer’s account. The IMF is analyzed and updated weekly and sends
information to other national files, as well as to Internal Revenue Service (IRS) campuses1 where
the data are used to generate notices, transactions, and reports.
Notice Systems
These systems are used to issue notices to taxpayers and their representatives for various
purposes such as informing them of errors in computing their taxes, requesting additional
information, or issuing bills for additional taxes due. The notices are generated based upon
taxpayer information obtained from other IRS systems such as the IMF.
Report Generation Software System
The Report Generation Software (RGS) System, used by the Examination function, computes
taxes and generates examination reports. The RGS System creates examination case files,
workpapers, and letters. It also assists tax examiners and managers in monitoring Examination
function inventories.
Dependent Database
The Dependent Database is a computer system used to identify and select for examination
taxpayers with possible erroneous Earned Income Tax Credit (EITC) claims. During initial tax
return processing, the system analyzes the return for specific criteria using several data sources.
These criteria are based upon characteristics that would indicate the taxpayer might not be
eligible for the EITC.
Audit Information Management System
The Audit Information Management System (AIMS) is designed to give Examination function
personnel information about the returns open for examination. The AIMS allows each IRS
campus to maintain its own Master File of cases under the Examination function’s jurisdiction,
to readily access and update the status of any case, and to produce management reports for its
jurisdictional area.


1
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the computing centers for analysis and posting to taxpayer accounts.

                                                                                                         Page 20
                   The Risk of Inaccurate Computer Changes Can Be Reduced
                        in Future Tests of the Earned Income Tax Credit

Electronic Filing Systems
The Electronic Filing Systems consist of the Front-End Processing System, the Submission
Processing Subsystem, and the Tax Return Data Base that together process electronically
transmitted tax returns. The Front-End Processing System is a gateway to and from electronic
income tax filing. It electronically exchanges data with the Submission Processing Subsystem,
which processes this information through a series of computer programs. The Tax Return Data
Base is the official repository of individual tax return data and provides the ability to view and
print electronically filed returns.
Automated Underreporter
The Automated Underreporter (AUR) Program, using an automated matching process, identifies
discrepancies between income reported on a tax return and on informational documents.
Underreporter cases are built from two primary sources: the IMF, containing information
reported to the IRS by taxpayers, and the Information Returns Master File, containing
information reported by payers. These files are matched to verify all income is reported. An
AUR case results when computer analysis detects a discrepancy between the two data sources.
Internet Refund Fact of Filing
The Internet Refund Fact of Filing application is an Internet application available to individual
taxpayers; it provides them access to the status of their income tax refunds via the Internet.
Taxpayers that visit www.irs.gov (Digital Daily web site) can click on “Where’s My Refund”
under the new “1040 Central” link and follow the instructions to check the status for the current
tax year.
Integrated Data Retrieval System
The Integrated Data Retrieval System (IDRS) is a computer system with the capability to
instantaneously retrieve or update stored information. The IDRS works with the Master File and
allows the IRS to quickly resolve problems and inquiries concerning taxpayer accounts.
Correspondex System
The Correspondex System includes over 400 letters that fit almost every tax situation; it is a
component of the IDRS. If the Correspondex System is used to generate letters to taxpayers, the
IDRS mainframe will automatically post an entity-history record to the taxpayer’s account when
the letter is printed. Letters are printed and prepared for mailing by the Machine Services area in
the processing center,2 and, unless there is an attachment or enclosure, the letters are
automatically stuffed into envelopes, sealed, and presorted for mailing.




2
  The processing center receives paper and electronic submissions, processes the information received, and forwards
it to the computing centers for posting to taxpayer accounts.                                               Page 21
                   The Risk of Inaccurate Computer Changes Can Be Reduced
                        in Future Tests of the Earned Income Tax Credit

                                                                                                 Appendix VI


                    Treasury Inspector General for Tax Administration
                          and General Accounting Office Reviews
                  of the Earned Income Tax Credit Proof of Concept Test

The Treasury Inspector General for Tax Administration (TIGTA) and the General Accounting
Office (GAO) have conducted reviews of the Internal Revenue Service’s (IRS) Earned Income
Tax Credit (EITC) Proof of Concept Test (the Test). Below are the details of the report each has
issued, along with a brief summary of the finding presented in each report. These audits are the
first in a series of audits both the TIGTA and GAO have planned on the IRS’ efforts to improve
compliance with the EITC.
TIGTA Report1
Management Controls Over the Proof of Concept Test of Earned Income Tax Credit
Certification Need to Be Improved (Reference Number 2004-40-032, dated December 2003)
Although the IRS accurately identified taxpayers for the Test of Certification of Qualifying Child
Residency Requirements (Certification) and used an appropriate sampling approach,
management controls needed improvement. Noting that continued change could jeopardize the
usefulness of the Test of Certification, the TIGTA advised that additional controls be
implemented, such as quantifying goals, establishing measures, and improving oversight of
management information systems.
GAO Report2
Qualifying Child Certification Test Appears Justified, but Evaluation Plan is Incomplete
(GAO-03-794, dated September 2003)
The Certification of Qualifying Child Residency Requirements (Certification) portion of the Test
appeared justified, but the evaluation plan was incomplete. The report noted the IRS’ plan for
evaluating this Test presented some information on how the IRS would evaluate whether
Certification would reduce the EITC overclaim rate,3 minimize burden, and maintain a relatively
high participation rate. However, it did not provide details regarding when decisions would be
made or the specific data that would be collected. The GAO recommended the IRS
Commissioner accelerate development of the plan to evaluate the Certification portion of the
Test and revise the plan to reflect how the EITC Program’s objectives would be evaluated,
including milestones for conducting the evaluation.



1
  Copies of this report can be obtained at www.treas.gov/tigta/.
2
  Copies of this report can be obtained at www.gao.gov.
3
  The amount of the EITC claimed by taxpayers above the amount to which they are entitled, compared to the total
amount of EITC claimed.
                                                                                                         Page 22
                     The Risk of Inaccurate Computer Changes Can Be Reduced
                          in Future Tests of the Earned Income Tax Credit

                                                                                                   Appendix VII


                                  The Internal Revenue Service’s
                              Request for Information Services Process

The Request for Information Services (RIS) process provides a framework to communicate,
document, control, monitor, and track requirements changes to Internal Revenue Service (IRS)
computer systems. In addition, it allows for amendments to requirements and programming as
circumstances dictate.
The process begins when a Customer Organization, such as the IRS Wage and Investment
Division, identifies a specific business need and submits a Placeholder to the IRS Modernization
and Information Technology Services (MITS) function. The Placeholder serves as early
notification to the MITS function that a Customer Organization may request MITS function
resources; it is due 14 months prior to the requested operational date for filing season1 system
changes. As the first deliverable in the request process, the Placeholder is generally the first of
many documents entered on the RIS Tracking and Reporting System (RTRS). The RTRS is an
application that provides a centralized repository for Placeholders, RISs, RIS responses, and any
amendments. It tracks the workflow from submission through implementation and closure.
Once the desired functionality is determined, a formal request is prepared and submitted by the
Customer Organization to the MITS function outlining the desired system changes. The request
is due to the MITS function no later than 10 months prior to the scheduled implementation date
for filing season system changes.
Once the system change request is received, the MITS function has 30 days to complete a
response to the request. Depending upon the circumstances, the response may be one of the
following five types: an extension, an interim, an approved, a returned, or a revised response.
An approved response memorandum is prepared when it has been determined that all or part of
the requested services will be delivered. Implementation of the request varies with the nature of
the application and the system. In some instances, the MITS function may divide the
implementation into phases if all of the work cannot be accomplished at the same time.
Finally, a System Acceptability Test (SAT) Request is provided to the IRS Product Assurance
Division (part of the MITS function), which performs an independent evaluation of system
changes and determines whether they are functioning properly. Using the RIS documentation to
establish a baseline, Product Assurance Division personnel develop a SAT test plan, perform
testing, and describe test results in an End-of-Test Status Report. This Report provides
information to help the Customer Organization and developer of the system changes assess the
quality of those changes.



1
    The period from January through mid-April when most individual income tax returns are filed.
                                                                                                         Page 23
                     The Risk of Inaccurate Computer Changes Can Be Reduced
                          in Future Tests of the Earned Income Tax Credit

                                                                                                   Appendix VIII


                 Inconsistencies Between Requested Programming Changes
                            and Available System Documentation
The Internal Revenue Service (IRS) maintains documentation on each of its computer systems
that describes in detail what happens to tax returns as they pass through the system. We
compared the documentation for the computer systems affected by the Earned Income Tax
Credit (EITC) Proof of Concept Test (the Test) to the business requirements requested by the
IRS EITC Office. Below is a detailed discussion of some of the potentially significant
inconsistencies we identified.
Revisions to the Certification of Qualifying Child Residency Requirements (Certification)
portion of the Test are not reflected in system documentation
The EITC Office revised the Certification portion of the Test to include 2 sub-samples within its
original sample of 25,000 taxpayers. One group will test an English and Spanish version of
some of the forms being mailed to these taxpayers. The other group will test an affidavit that
will allow friends and family of a taxpayer to attest to the residency qualifications of the
taxpayer’s children. The EITC Office planned to create a special code for each of these groups
of taxpayers identifying which program the returns would be worked under. However, our
review of documentation for the computer program affected by this portion of the Test showed
no reference to these special codes.
System documentation raises concerns about whether refunds for 5,000 taxpayers will be
issued properly
Beginning with the 2004 Filing Season,1 the IRS will allow partial refunds to taxpayers whose
returns are stopped during processing pending verification of their EITC claims. The IRS will
allow the non-EITC portion of the refund to be sent to the taxpayer. The remainder of the refund
will be held until the EITC claim can be verified. This change affects all taxpayers whose EITC
claims are being verified, not just those involved in the Test.
This change, however, creates a potential problem for the Verification of Filing Status (Filing
Status) portion of the Test. The EITC Office intends for a sample of 5,000 taxpayers in the
Filing Status portion of the Test to receive their full refunds rather than having the EITC portions
held prior to verification of their filing status. Our review of computer program documentation
shows the Modernization and Information Technology Services function has made programming
changes to hold the EITC portion of the refunds. However, we were unable to find
documentation that ensures programming changes had been made to allow the issuance of full
refunds for the 5,000 taxpayers.



1
    The period from January through mid-April when most individual income tax returns are filed.
                                                                                                         Page 24
                 The Risk of Inaccurate Computer Changes Can Be Reduced
                      in Future Tests of the Earned Income Tax Credit

The EITC Office advised us all programming changes needed to allow the issuance of refunds
for the sample of 5,000 taxpayers have been made. However, it was unable to provide us with
updated documentation to support this.
Assistance EITC taxpayers receive when they ask about the status of their refunds could be
confusing
The IRS offers taxpayers two ways to check on the status of their refunds—the “Where’s My
Refund?” link on the IRS Internet web site and the toll-free telephone refund inquiry line.
However, the response provided to EITC claimants whose refunds have been partially frozen
pending verification of their EITC claims may be confusing.
This concern was originally identified by an IRS computer program analyst and brought to the
attention of analysts responsible for these applications, as well as those involved with the
implementation of the Test. While it was acknowledged that the advice to these taxpayers would
likely be confusing, the analysts believed the problem would be minimized since only the
25,000 taxpayers in the Certification portion of the Test would be affected. However, this was
not a valid assumption. The programming changes that freeze the EITC portion of the
refunds will affect every EITC claimant who has a refund frozen for any EITC-related issue. If
the number of EITC claimants that had refunds frozen on their Tax Year (TY) 2002 returns holds
constant for TY 2003, approximately 350,000 taxpayers could be affected by this programming
change and may not receive complete and accurate information related to their refunds.
Because the analysts were not aware of the potential number of taxpayers that could be affected
by this change, no actions were taken to ensure the IRS Internet web site and toll-free telephone
refund inquiry line adequately explain why taxpayers’ refunds have been issued in a different
amount or inform them that additional monies may be refunded at a later date. We advised the
EITC Office of this issue on November 14, 2003. While it agreed improvements could be made
to the IRS Internet web site and toll-free telephone refund inquiry line, changes could not be
implemented for the 2004 Filing Season but would be considered in the future. The EITC Office
also indicated correspondence sent to taxpayers receiving partial refunds would help reduce the
confusion these taxpayers experience since the correspondence explains why part of each refund
is being held.
The notice sent to taxpayers and tax preparers that file tax returns electronically would
have inaccurately notified them their refunds were frozen
Taxpayers and tax preparers that electronically file TY 2003 returns claiming the EITC will
receive an electronic notification from the IRS if the taxpayer is selected to be part of the
Certification portion of the Test. The notification alerts the taxpayer and/or tax preparer that the
EITC portion of the taxpayer’s refund will be frozen until the IRS verifies that the taxpayer
meets the EITC qualifying child residency requirements. The notification also advises that
additional required documentation and related documents should be mailed or faxed to the IRS.
This notification is particularly important because it alerts the tax preparer that his or her
assistance may be needed in filing the necessary documentation and advises the tax preparer and
taxpayer that a potentially significant portion of the tax refund will be delayed. While we agree
                                                                                             Page 25
                 The Risk of Inaccurate Computer Changes Can Be Reduced
                      in Future Tests of the Earned Income Tax Credit

this is an excellent step in providing quality service from the IRS, we advised the EITC Office on
November 20, 2003, of a concern about the criteria used to generate this notification.
The EITC Office had planned to send the notification to these taxpayers regardless of whether
they had claimed a qualifying child for the EITC on their TY 2003 returns. However, per the
criteria set for the Test, if the taxpayer does not claim a qualifying child, the refund will not be
delayed and no additional documentation is necessary. We were concerned that some of the
taxpayers in the Certification portion of the Test would become confused and overly burdened by
the notification. After receiving this information from us, the EITC Office revised the criteria
for sending the notification so only those taxpayers in the Test that claim the EITC with a
qualifying child will receive it.




                                                                                            Page 26
The Risk of Inaccurate Computer Changes Can Be Reduced
     in Future Tests of the Earned Income Tax Credit

                                                         Appendix IX


    Management’s Response to the Draft Report




                                                              Page 27
The Risk of Inaccurate Computer Changes Can Be Reduced
     in Future Tests of the Earned Income Tax Credit




                                                         Page 28
The Risk of Inaccurate Computer Changes Can Be Reduced
     in Future Tests of the Earned Income Tax Credit




                                                         Page 29
